<html>
<title> - RECENT DEVELOPMENTS IN NASA'S COMMERCIAL CREW ACQUISITION STRATEGY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                     RECENT DEVELOPMENTS IN NASA'S 
                  COMMERCIAL CREW ACQUISITION STRATEGY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       FRIDAY, SEPTEMBER 14, 2012

                               __________

                           Serial No. 112-104

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
76-234                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


                            C O N T E N T S

                       Friday, September 14, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................
    Written Statement............................................    14

Statement by Representative Donna F. Edwards, Member, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

                               Witnesses:

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    16
    Written Statement............................................    19

Vice Admiral Joseph W. Dyer, USN (Ret.), Chairman, Aerospace 
  Safety Advisory Panel
    Oral Statement...............................................    24
    Written Statement............................................    26

             Appendix I: Answers to Post-Hearing Questions

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration...........................    52

Vice Admiral Joseph W. Dyer, USN (Ret.), Chairman, Aerospace 
  Safety Advisory Panel..........................................    57

            Appendix II: Additional Material for the Record

Submitted Statement for the Record by Representative Jerry 
  Costello, Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    64


                         RECENT DEVELOPMENTS IN
                         NASA'S COMMERCIAL CREW
                          ACQUISITION STRATEGY

                              ----------                              


                       FRIDAY, SEPTEMBER 14, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 9:34 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] T6234.001

[GRAPHIC] [TIFF OMITTED] T6234.002

[GRAPHIC] [TIFF OMITTED] T6234.003

[GRAPHIC] [TIFF OMITTED] T6234.004

[GRAPHIC] [TIFF OMITTED] T6234.005

[GRAPHIC] [TIFF OMITTED] T6234.006

[GRAPHIC] [TIFF OMITTED] T6234.007

[GRAPHIC] [TIFF OMITTED] T6234.008

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order. I say good morning and welcome 
to today's hearing entitled ``Recent Developments in NASA's 
Commercial Crew Acquisition Strategy.'' In front of you are 
packets containing the written testimony, biographies and the 
Truth in Testimony disclosures for today's witnesses. And we 
certainly thank all of you for your preparation time, your 
traveling time and for the time you are giving us here today. 
We will have opening statements, and I recognize myself for 
five minutes for an opening statement.
    Before we begin today, I want to take a moment to pay 
tribute to a true hero, and I know it is a tribute all of us 
would pay, and a very dear friend, Neil Armstrong, who was 
memorialized yesterday in a very moving ceremony at the 
National Cathedral. He has been before this Committee a lot of 
times and he was an inspiration to everyone, a hero throughout 
the world, and yet one of the most honorable and gracious men 
you have ever known or ever met. I had the pleasure of having 
him in my home in late August, and the thing I treasure more 
than anything, his letter back several days later that I didn't 
really receive, didn't find its way through Washington through 
Texas to my office in Rockwell, my home in Rockwell for some 
time.
    On several occasions he appeared before this Committee. His 
first step, I don't say anything here that you don't know, and 
you were listening, you heard it yesterday, a lot of it, 
established our preeminence in space, and I think it got old to 
him to hear people introduce him as the Columbuses and the 
Magellans of space, but that is exactly what they were. Neil 
was just really an advocate for preserving our leadership, and 
I know my colleagues join me in working to carry out his 
legacy. We will also be inspired by his very remarkable life 
and forever honor him for his place in American history. People 
will be reading about him and value very much the pictures they 
have with him though they didn't get an autograph with most of 
them in his latter years. I think he got a little sick of 
people getting his autograph and going and selling it for a 
thousand bucks or so.
    And I want to thank our witnesses for being with us today. 
I know you treasured his recognition yesterday and the memory 
that we have of him.
    I will get underway with my statement. NASA recently 
awarded more than $1.1 billion to three companies to develop 
competing concepts for human space transportation launch 
systems. Today's hearing is going to review NASA's rationale 
for selecting the three companies, to consider the cost and 
safety implications of these recent decisions, and given the 
unique nature of Space Act Agreements, examine the level of 
NASA's insight and thus its ability to evaluate technical and 
safety requirements.
    Our Nation has made great strides in space exploration but 
these strides have not come without cost and without sacrifice. 
We have lost astronauts. After the Columbia accident, President 
Bush and Congress put our Nation and absolutely put us on a 
path to develop new human space transportation systems that 
were designed from inception to be safer than the space 
shuttle. Safety was very big, of course. NASA responded with 
the Constellation system. But this Administration has chosen a 
different path. NASA now seeks to use government funds to 
stimulate aerospace companies to develop multiple, competing 
human spaceflight systems, systems for which NASA may be the 
only customer. Are these systems designed from inception to be 
safer than the space shuttle, or is NASA responding to 
different goals? How and when will we know the safety of these 
new systems?
    NASA is using Space Act Agreements, not regular contracts, 
giving the companies great flexibility to do as they see fit, 
in fact, so much flexibility that during this phase no NASA 
crew transportation system requirements can be levied. It is 
hard for me to understand why NASA is proceeding this way. Will 
this result in systems that are safe for our American and 
international partner astronauts? How will NASA know if they 
don't have the insight? And perhaps more importantly to those 
of us in Congress who are asked to fund this, how and when will 
NASA know if it is getting what it needs and if these systems 
will be safe enough? Redesigns will be costly and time 
consuming if important technical or safety requirements were 
not addressed up front, which I think they should be.
    If our Nation is going to ask crews to explore space, it is 
our responsibility to do everything possible to ensure that 
those astronauts return to Earth safely. I am not convinced 
this approach is the right one but I am willing to listen.
    [The prepared statement of Mr. Hall follows:]

               Prepared Statement of Chairman Ralph Hall

    Good morning, and welcome to today's hearing. Before we begin 
today, I want to take a moment to pay tribute to a true hero and a dear 
friend, Neil Armstrong, who was memorialized yesterday in a moving 
ceremony at the National Cathedral.
    Neil Armstrong was an inspiration to all Americans, a recognized 
hero throughout the world--and yet one of the most humble and gracious 
men you ever met. On several occasions Neil appeared before this 
Committee to offer his wisdom and insight, deflecting praise and 
questions with grace and humility.
    Neil's first step on the Moon established America's preeminence in 
space and paved the way for scores of spectacular missions involving 
hundreds of outstanding Astronauts. Neil was one of the most 
impassioned advocates for preserving America's leadership in space and 
constantly challenged us to strengthen human space exploration goals 
and missions. I urge my colleagues to join me in working to carry out 
his legacy. We will forever be inspired by his remarkable life and 
forever honor him for his place in American history.
    I want to thank our witnesses for being with us today. I know at 
lot of time and effort goes into your preparation but your knowledge 
and experience is very important to us, so thank you for taking the 
time to appear today.
    NASA recently awarded more than $1.1 billion to three companies to 
develop competing concepts for human space transportation launch 
systems. Today's hearing will review NASA's rationale for selecting the 
three companies; consider the cost and safety implications of these 
recent decisions; and given the unique nature of Space Act Agreements, 
examine the level of NASA's insight and thus, its ability to evaluate 
technical and safety requirements.
    Our nation has made great strides in space exploration. But those 
strides have not come without cost and sacrifice. We have lost 
astronauts. After the Columbia accident President Bush and Congress put 
our nation on a path to develop new human space transportation systems 
that were designed from inception to be safer than the Space Shuttle. 
NASA responded with the Constellation system. But this Administration 
has chosen a different path. NASA now seeks to use government funds to 
stimulate aerospace companies to develop multiple, competing human 
spaceflight systems--systems for which NASA may be the only customer. 
Are these systems designed from inception to be safer than the space 
shuttle, or is NASA responding to different goals? How and when will we 
know the safety of these new systems?
    NASA is using Space Act Agreements--not regular contracts--giving 
the companies great flexibility to do as they see fit. In fact so much 
flexibility that during this phase no NASA crew transportation system 
requirements can be levied. It's hard for me to understand why NASA is 
proceeding this way. Will this result in systems that are safe for our 
American and international partner astronauts? How will NASA know if 
they don't have the insight? And perhaps more importantly to those of 
us in Congress who are asked to fund this, how and when will NASA know 
if it is getting what it needs and if these systems will be safe 
enough. Redesigns will be costly and time consuming if important 
technical or safety requirements were not addressed up front.
    If our nation is going to ask crews to explore space, it is our 
responsibility to do everything possible to ensure that those 
astronauts return to Earth safely. I'm not convinced this approach is 
the right one but I'm willing to listen.

    Chairman Hall. At this time I recognize Ms. Edwards for her 
opening statement.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you for 
your words about Neil Armstrong. It really was quite a moving 
tribute in celebration of his life yesterday, and I think for 
those of us, whether we were mature back then or were just 
little girls in school, it made us come to appreciate the 
desire and willingness to explore uncharted territory, and I 
think has made me anyway as infectious about NASA and the space 
program as I have ever been.
    I want to thank our witnesses this morning and look forward 
to your testimony. And as my colleagues know, I am a strong 
supporter of NASA, both the science programs and the human 
spaceflight activities. I also am keenly interested in and 
excited by the entrepreneurial energy that is being devoted to 
human spaceflight these days. The passion of those working on 
commercial approaches to human spaceflight is indeed 
infectious, and as I have said before--no great secret--I want 
to be there myself. I want to fly.
    But that said, in my capacity as a member of this 
Committee, I have a responsibility, as we all do, to scrutinize 
each of NASA's major projects to make sure that they are well 
planned and executable. NASA's Commercial Crew Program has to 
be subjected to that same level of oversight and scrutiny if we 
are to do our jobs on this Committee.
    In that regard, I am concerned that NASA may not be holding 
that program, the Commercial Crew Program, to the same standard 
as other major acquisitions. Make no mistake: this is a major 
acquisition for NASA. When the taxpayer is footing the bill, 
paying on average 9 out of every 10 dollars that is being spent 
to develop these commercial crew vehicles, we are not talking 
about a straightforward purchase of commercial services from 
the GSA list. These services don't even exist yet.
    I am puzzled and a bit frustrated that NASA appears to be 
unable or unwilling to acknowledge the warning signs that this 
major program is not on a firm path to success at present, and 
I look forward to hearing from our witnesses about that. In 
that regard, the written testimony of the Chair of the 
Aerospace Safety Advisory Panel, ASAP, Admiral Dyer, is 
illuminating. While his prose is cautious and understated, it 
is hard not to read the concern couched in such statements as, 
and I quote, ``Lacking an independent cost estimate, we are 
uncertain as to affordability,'' and continuing the quote, 
``However, we arrive at this point in time with designs that 
are maturing before requirements, and where government and 
industry have not yet agreed on how winning designs will be 
accepted and certified. We worry that the cart is ahead of the 
horse,'' and he continued, ``NASA is just now undertaking to 
determine how systems will be certified to transport NASA 
astronauts. This timing increases programmatic risk and has 
serious potential to impact safety.''
    And so to that, I would add some of my own concerns, namely 
that not only do we not have an independent cost assessment to 
guide our Congressional deliberations, we don't have 
independent assessment of when these commercial systems will 
actually be able to start operational service to the 
International Space Station. NASA is saying ``in the 2017 
timeframe'' in Mr. Gerstenmaier's testimony, and even 2018 in 
one of its notional planning charts, and I would note that both 
of those dates are within just a few years of the currently 
scheduled end of Space Station operations and years later than 
originally promised. Moreover, both of those dates appear to be 
based on assumed funding levels for the Commercial Crew Program 
that don't seem to bear much resemblance to what Congress has 
authorized or appropriated so far, or is likely to approve in 
the foreseeable future. If that is true, then I think we need 
NASA to give us a cost and schedule estimate that is based on 
more realistic budgetary assumptions, so we can see what is 
most likely to actually happen, something we require for all 
other NASA major programs.
    In addition, NASA still has not given Congress a clear 
understanding of how much it will cost to fly our astronauts on 
these commercial systems. It is reported that NASA has had an 
independent assessment that estimates that NASA's commercial 
crew seats are likely to be several times as high as Soyuz 
costs. If that is true, and I want to know whether it is true, 
we need to know.
    And finally, as alluded to in Admiral Dyer's testimony, 
NASA's latest approach to acquiring those commercial crew 
systems is, to put it charitably, ``complex and unique.'' 
Trying to run Space Act Agreements in parallel to FAR-based 
contracts may be a workaround, as the ASAP testimony phrases 
it, but that begs the question of why NASA didn't just stick to 
its original plan for FAR-based contracting.
    So we have much to talk about today. And as I close, I want 
you to know how much I appreciate the service that is rendered 
to this Committee and to the Nation on a continuing basis by 
the gentlemen appearing before us today. Both of you really 
have difficult jobs, and we appreciate your efforts, and thank 
you very much.
    [The prepared statement of Ms. Edwards follows:]

          Prepared Statement of Represenative Donna F. Edwards

    Good morning, and welcome to our witnesses. I look forward to your 
testimony.
    As my colleagues know, I am a strong supporter of NASA, both its 
science programs and its human spaceflight activities. I also am keenly 
interested in and excited by the entrepreneurial energy being devoted 
to human spaceflight these days. The passion of those working on 
commercial approaches to human spaceflight is infectious--and as I've 
said before, I'd love to fly into space myself someday!
    That said, in my capacity as a Member of this oversight Committee, 
I have a responsibility to scrutinize each of NASA's major projects to 
make sure that they are well planned and executable. NASA's commercial 
crew program has to be subjected to that same level of oversight if we 
are doing our jobs on this Committee.
    In that regard, I have to say that I am concerned that NASA is not 
holding that program to the same standard as its other major 
acquisitions. And make no mistake--this is a major acquisition for 
NASA. When the taxpayer is paying on average nine out of every ten 
dollars being spent to develop these commercial crew vehicles, we are 
not talking about a straightforward purchase of commercial services 
from the GSA list--these services don't even exist yet.
    That said, I am puzzled and a bit frustrated that NASA appears to 
be unable or unwilling to acknowledge the warning signs that this major 
program is not on a firm path to success at present. In that regard, 
the written testimony of the Chair of the Aerospace Advisory Panel 
(ASAP), Admiral Dyer, is illuminating. While his prose is cautious and 
understated, it is hard not to read the concern couched in such 
statements as:

      ``Lacking an independent cost estimate, we are uncertain as to 
affordability.''

      ``However, we arrive at this point in time with designs that are 
maturing before requirements, and where government and industry have 
not yet agreed on how winning designs will be accepted and certified. 
We worry that the cart is ahead of the horse,'' and

      ``NASA is just now undertaking to determine how systems will be 
certified to transport NASA astronauts. This timing increases 
programmatic risk and has serious potential to impact safety.''

    To that I would add some of my own concerns, namely that not only 
do we not have an independent cost assessment to guide our 
congressional deliberations, we don't have any independent assessment 
of when these commercial systems will actually be able to start 
operational service to the International Space Station. NASA is saying 
``in the 2017 timeframe'' in Mr. Gerstenmaier's testimony and even 2018 
in one of its notional planning charts--and I would note that both of 
those dates are within just a few years of the currently scheduled end 
of Space Station operations--and years later than originally promised. 
Moreover, both of those dates appear to be based on assumed funding 
levels for the commercial crew program that don't seem to bear much 
resemblance to what Congress has authorized or appropriated so far, or 
is likely to approve in the foreseeable future. If that's true, then I 
think we need NASA to give us a cost and schedule estimate that is 
based on more realistic budgetary assumptions, so we can see what is 
most likely to actually happen--something we require for all of NASA's 
other major programs.
    In addition, NASA still has not given Congress a clear 
understanding of how much it will cost to fly our astronauts on these 
commercial systems. It is reported that NASA has had independent 
assessments that estimate that NASA's commercial crew seat costs are 
likely to be several times as high as Soyuz costs. Is that true? We 
need to know.
    And finally, as alluded to in Admiral Dyer's testimony, NASA's 
latest approach to acquiring these commercial crew systems is, to put 
it charitably, ``complex and unique.'' Trying to run Space Act 
Agreements in parallel to FAR-based contracts may be a ``workaround,'' 
as the ASAP testimony phrases it, but that begs the question of why 
NASA didn't just stick to its original plan for FAR-based contracting.
    Well, we have much to talk about today. As I close though, I would 
like to say that I deeply appreciate the service rendered to this 
Committee and to the nation on a continuing basis by the two gentlemen 
appearing before us today. You both have very hard jobs, and we 
appreciate your efforts.
    Thank you, and with that I yield back the balance of my time.

    Chairman Hall. The gentlelady yields back.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning. I would like to join Chairman Hall in welcoming our 
witnesses to today's hearing. You both have served the nation well in a 
number of capacities over the years, and we appreciate your dedication.
    I will try to be brief in my opening comments. It was a little less 
than a year ago that this Committee held its most recent hearing on 
NASA's commercial crew program. At that time, I raised a number of 
concerns and questions that I believe Congress needed to have addressed 
if we were to adequately pass judgment on NASA's plans and protect the 
interests of the taxpayer. A year later most of those questions and 
concerns remain.
    I had hoped that in the intervening time, NASA would either 
converge on a realistic and executable plan within likely funding 
levels that could provide safe, affordable, and timely commercial crew 
transportation services to the International Space Station--or 
alternatively, determine that it couldn't do so with a high likelihood 
of success within the available funding and then look for other ways of 
meeting its crew transportation needs.

    Unfortunately, NASA has done neither.

    Instead of converging on an executable plan, NASA has shifted its 
acquisition approach multiple times and now is proposing to carry out 
two distinct acquisition approaches in parallel. It has persisted in 
basing its program on budgetary assumptions that appear to be 
unrealistic based on both the authorizations and appropriations 
provided to date and the fiscal outlook facing the agency. And it still 
does not appear to have achieved a consensus within the agency on 
whether the primary purpose of the program is to provide crew transport 
to the ISS as soon as possible or to attempt to create a new commercial 
crew industry that doesn't currently exist.
    While I hope that I am wrong, those don't appear to be the 
characteristics of a program that is headed in a successful direction. 
And I see other symptoms of a program in trouble. First, despite 
repeated requests by this Committee and concerns voiced by the 
Aerospace Safety Advisory Panel, NASA still has not had an independent 
cost and schedule assessment conducted for the commercial crew program, 
so we still do not know what the ultimate cost to the American taxpayer 
is likely to be, or when these systems are likely to become 
operational.
    Second, while a number of Members have supported the program 
because they do not like the idea of paying the Russians to transport 
our astronauts to the ISS, NASA has been unable to provide any evidence 
to indicate that the cost per seat to NASA will be any lower than the 
costs it incurs with the Russians. Instead, a number of the analyses 
done for NASA to date indicate that NASA's cost per seat from 
commercial providers could be several times higher than the prices 
charged by the Russians.
    Third, while one of NASA's stated goals for its commercial crew 
program is ``Achieving significant industry financial investment,'' 
based on Committee staff calculations the recently awarded Space Act 
Agreements demonstrate that the companies selected are only willing to 
contribute an average of just 11% of the cost of developing the 
commercial crew systems-systems that the government will then also have 
to pay to use. I'm not sure I can explain to my constituents why they 
should consider that a fair arrangement.
    Finally, although I think most Members believe the primary 
justification for the commercial crew program is to provide crew 
transportation to the ISS as soon as possible, NASA's own planning 
charts now show operational commercial crew transportation services to 
the ISS not starting until 2018-not the 2015 or 2016 dates agency 
officials were originally predicting-and only two years from the 
currently scheduled end of the Space Station program. Even that 2018 
date appears to be based on funding levels from here on out that are 
not likely to be achieved.
    Well, I'm sorry that I can't give a more positive assessment today. 
I really am excited by the work that the companies have done to date, 
and I certainly wish them well. However, as I said at last year's 
hearing, I can't let my enthusiasm for entrepreneurship override my 
responsibility to take a clearheaded look at NASA's plans. I owe that 
to my constituents and to all of the American taxpayers.
    I will just close by again thanking our witnesses, and I look 
forward to your testimony. With that, I yield back the balance of my 
time.
    Chairman Hall. At this time I am honored to get to 
introduce the panel of witnesses. Our first witness is Mr. 
William H. Gerstenmaier, a very capable Associate Administrator 
of Human Exploration and Operations Mission Directorate at the 
National Aeronautics and Space Administration. Mr. Gerstenmaier 
began his career at NASA in 1977 after graduating from Purdue 
University with a bachelor of science degree in aeronautical 
engineering. He has been before this Committee on many 
occasions. We have sought his advice. He has always been 
generous with it. During his tenure at NASA, he has led a 
number of activities associated with the shuttle, International 
Space Station and the shuttle Mir. Mr. Gerstenmaier has 
received a number of awards at NASA including the Presidential 
Rank Award for Meritorious Executives, and I welcome you once 
again, Mr. Gerstenmaier.
    Our second witness is retired U.S. Navy Vice Admiral Joseph 
W. Dyer, Chairman of the Aerospace Safety Advisory Panel. 
Admiral Dyer served a long and distinguished career in the 
United States Navy. He received his wings in 1971. He 
progressed through the ranks, eventually obtaining the position 
of Chief Test Pilot and Program Manager for the F-18 program, 
and from 2000 to 2003 served as Commander of the Naval Air 
Systems Command. Today he is a Senior Executive with the iRobot 
Corporation. Welcome, Admiral Dyer. We are very delighted to 
have you with us here today.
    As our witnesses should know, spoken testimony is limited 
to five minutes after which the members of the Committee will 
have five minutes each to ask questions. We will be generous 
with that with the value of your presentation here and your 
gift of your time, getting ready to come here and testify.
    I now recognize the witness's to present their testimony. 
Mr. Gerstenmaier, you are recognized for five minutes, sir, to 
present your testimony.

           STATEMENT OF MR. WILLIAM H. GERSTENMAIER,

         ASSOCIATE ADMINISTRATOR, HUMAN EXPLORATION AND

                OPERATIONS MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. Thank you.
    I had the privilege of working with the teams that are 
developing and operating the systems that support human 
spaceflight. The teams take this responsibility very seriously. 
This is a tremendous responsibility and honor. These teams are 
doing their best to deliver and operate systems in efficient, 
effective, safe and cost-effective manners. The teams also 
recognize the sacrifices made by this Nation to provide NASA 
the funds necessary to pursue these endeavors. The teams 
believe the sacrifices made by the Nation will enable a better 
future.
    Sometimes folks like to talk about our development 
activities, commercial and traditional, as separate, unrelated 
activities. There have been two hearings this week, one on 
examining NASA's development of the Space Launch System and 
Orion crew capsule, and today's hearing, ``Recent Developments 
in NASA's Commercial Crew Acquisition Strategy.'' I look at 
these as related activities and both in support of human 
spaceflight. The Commercial Crew Program is important to the 
International Space Station program. We need redundant crew 
transportation and rescue capability as soon as possible. We 
need to back up crew transportation for this remarkable 
facility, the International Space Station. We have similar 
redundancy in cargo. We have different providers for cargo, and 
we need the same for crew. We need a very different system to 
enable exploration beyond low-Earth orbit, that is, for SLS and 
Orion. It has different technical capabilities.
    The current budget environment is making developing two 
systems, crew for ISS and the SLS-Orion for beyond low-Earth 
orbit a challenge. Both of these programs are needed for a 
human spaceflight program. We need to look at these programs 
supporting each other and ultimately the human spaceflight 
program for the Nation. The human spaceflight program in 
combination with NASA's scientific robotic exploration program 
is providing a motivation for innovation, creativity and 
provides the Nation a chance to inspire students to pursue 
technical careers.
    My written testimony covers many of the recent events in 
Commercial Crew Program. We recently have made the Commercial 
Crew Integrated Capability Space Act Awards. The teams have 
completed requirement development for crew transportation. We 
have developed an overall strategy that uses Space Act and 
contracts. This strategy is outlined in a white paper that is 
publicly available. Two days ago, we put out a request for 
proposal for the first phase of the contract that will develop 
crew transportation for ISS. This is the first award of the 
first phase of a two-phase contract that we intend to award in 
February of 2013. We are still finalizing the details of our 
overall strategy in the outyears.
    And then we also put a white paper that describes our 
approach to certifying the designs for crew transportation, and 
this white paper is not to be confused with the white paper on 
acquisition strategy. This white paper talks about how we are 
going to actually certify the designs and how we maintain 
waivers, et cetera, and ensure the safety of the requirements 
that are in place, and we are looking for comments to this 
white paper that was recently released.
    We have listened to many outside expert advisors and built 
a sound strategy to deliver capability for this Nation in a 
cost-effective and safe manner. The approach to this program is 
different than past programs but shares many similarities. We 
have learned from previous activities and are putting that 
learning to work. We are also taking lessons from the 
commercial crew and applying those back to SLS and Orion. I am 
sure we will learn more as we progress. We are innovating as 
best that we can. It will not be easy developing a system to 
safety carry crew to he ISS. The teams have made tremendous 
progress in the last year. We still have many challenges ahead 
understanding the fiscal year 2013 budget, completing phase one 
awards for the certification acquisition, monitoring progress 
of our commercial providers as they head towards a critical 
design review level of maturity, and refining the outyear 
acquisition strategy. We will listen to the outside advisors 
and take their advice into consideration.
    I continue to watch the NASA team deliver programs and 
products that others thought impossible. With proper support 
from all of us, the NASA team will deliver a safe U.S. crew 
transportation system for the ISS.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]

    [GRAPHIC] [TIFF OMITTED] T6234.009
    
    [GRAPHIC] [TIFF OMITTED] T6234.010
    
    [GRAPHIC] [TIFF OMITTED] T6234.011
    
    [GRAPHIC] [TIFF OMITTED] T6234.012
    
    [GRAPHIC] [TIFF OMITTED] T6234.013
    
    Chairman Hall. Thank you.
    I recognize Admiral Dyer to present his testimony.

           STATEMENT OF VICE ADMIRAL JOSEPH W. DYER,

                      U.S. NAVY (RETIRED),

        CHAIRMAN OF THE AEROSPACE SAFETY ADVISORY PANEL

    Admiral Dyer. Thank you, Chairman Hall, distinguished 
members of the panel. Thank you for the opportunity to appear 
before you today.
    As requested, I will present the ASAP's perspective 
regarding NASA's current acquisition approach for the 
Commercial Transportation System. As noted in our 2011 annual 
report, the Commercial Crew Program remains an important topic 
for the ASAP. We have closely followed the program and its 
progress and its acquisition strategy.
    Sir, my outline for remarks today are how high should the 
bar be set with regard to safety, the certification contracts, 
a big step forward but how will they be administered, this 
relationship between the SAA and FAR contracts that Congressman 
Edwards addressed, and lastly, clear communications.
    Congressman Hall, when I went through this with my wife 
last night, it took me seven minutes. She said that wasn't too 
bad for a Southerner. I told her you would understand.
    In our 2011 report, we addressed the question, and I quote, 
``How safe is safe enough?'' The pursuit of great reward often 
comes hand in hand with great risk so it has always been with 
explorers. The answer to the question must come from a balance 
between risk and reward and should reflect a consensus among 
the American people, the White House and the Congress. It is 
not our purpose or intent to answer the question, how safe is 
safe enough. It is instead to point out areas where we believe 
the stated requirement may not produce the requisite safety.
    Mr. Gerstenmaier's team produced a retrospective review of 
the space shuttle safety program and risk with the benefit of 
20/20 hindsight. During those genesis days, there was a belief 
that the risk of loss to crew was one in a thousand. 
Retrospectively, we believe now that it is one in 12. The 
design goal or design baseline for commercial space is one in 
270 for a specific mission. So we raised the question, are we 
raising the bar high enough. That remains to be seen but I know 
it is very much on the mind of NASA.
    In our submission, sir, we provide a checklist of what we 
believe are the six most important items, and as our practice, 
we have color-coded them red, yellow, green to reflect what we 
believe to be their status.
    A solid green and a giant step forward is that NASA has 
clearly communicated to the partners-cum-contractors that 
certification is a fundamental requirement of transitioning 
NASA and transporting astronauts to and from space.
    Three elements that we code as yellow, they are 
progressing. They are advanced significantly by the 
certification contracts but not yet in hand or establishing 
solid requirements, promulgating how the agency will verify 
those requirements and a validation and verification plan.
    Two elements that are red in our mind deal primarily with 
the process that contractors shall follow on the path to 
certification. Congresswoman Edwards, as you indicated, it is 
not yet clear to us how waivers and deviations will be 
approved, who is accountable and how the process shall be 
administered.
    Lastly, both from the Congress's perspective and NASA's 
perspective, budget and budget stability are a significant 
challenge.
    Mr. Chairman, informally, Committee staff has asked, is the 
Space Act Agreement appropriate to support the development of 
commercial crew transportation capabilities. To date, many 
maintain that the freedom and flexibility of an SAA have 
enabled creativity and innovation, and it may be delivering 
greater value for money. That may be true. However, we arrive 
at this point in time with the designs that are maturing before 
requirements, where government and industry have not yet agreed 
on how winning designs will be accepted and certified.
    The current acquisition approach and funded under the SAA 
construct is concurrent with a contracted or FAR-based 
certification program. It is unique and it is complex. In our 
opinion, this approach is a workaround for the requirements and 
the communication and challenges implicit in the SAA. It is not 
clear yet to the panel how the safety requirements necessary 
for certification will flow from the FAR contract to the SAA 
partners.
    Let me speak specifically to communication, and I would 
submit this is my most important message of the morning. In our 
travels to Boeing, SpaceX, Orbital Sciences, Sierra Nevada and 
Blue Origin, we have heard pros and cons with regard to the 
SAA. Flexibility is universally the prime advantage. However, 
as the design matures and begins taking shape, partners seek 
reassurance that they are on the right track that will lead to 
successful certification. They posed specific questions about 
what NASA will eventually require of the designs but NASA 
interprets that they cannot provide the answers to these SAA 
questions, to these questions under the SAA construct. We asker 
the partners so in that case what do you do. One contractor 
answered by saying ``We look for nonverbal communication, you 
know, body language and winks and nods.'' Mr. Chairman, if you 
are the congressionally charted panel tasked to watch over 
safety, this is not a comfortable communication approach for 
requirements.
    The FAR-based certification contract has the potential to 
overcome this challenge but it is a workaround for the 
downsides of Space Act Agreements. Thank you, sir.
    [The prepared statement of Admiral Dyer follows:]

    [GRAPHIC] [TIFF OMITTED] T6234.014
    
    [GRAPHIC] [TIFF OMITTED] T6234.015
    
    [GRAPHIC] [TIFF OMITTED] T6234.016
    
    [GRAPHIC] [TIFF OMITTED] T6234.017
    
    [GRAPHIC] [TIFF OMITTED] T6234.018
    
    [GRAPHIC] [TIFF OMITTED] T6234.019
    
    [GRAPHIC] [TIFF OMITTED] T6234.020
    
    Chairman Hall. Admiral, thank you. It was a very good 
presentation. You kind of shook your finger in our face there 
once. Did you do that to your wife?
    Admiral Dyer. She usually does it to me.
    Chairman Hall. Good testimony, and we thank you for it.
    Don't judge the interest of this Committee by empty chairs 
here because November 7th or 6th is coming pretty soon, and we 
have just a few working days. Each of them has somewhere to go. 
I am not unlike each of them because I have to leave the chair 
to go to the Floor for a while and I am going to ask the 
Chairman of Space and Aeronautics, the gentleman from 
Mississippi, Mr. Palazzo, to take the chair until I get back, 
and not to get used to it or don't enjoy it too much.
    Mr. Palazzo. [Presiding] I want to echo Chairman Hall's 
comments, and thank you again for your solid testimony. I would 
also like to remind Members of the Committee, rules limit 
questioning to five minutes. The Chair will at this point open 
the round of questions. The Chair recognizes himself for five 
minutes.
    Admiral Dyer, this is going to be directed to you. Many of 
us on this Committee lived through the aftermath of the 
Columbia accident investigation and remember some of those 
lessons. NASA needs clear requirements and good communication 
with its companies. Your testimony points out how NASA's 
planned approach, where development is funded by SAA concurrent 
STET with certification funded by FAR-based contract is 
complex, unique, and a workaround for the communications and 
requirements that are necessary to ensure safety and NASA's 
final certification. If your panel is not comfortable with this 
approach, then Congress should not be comfortable either. What 
is the worst-case scenario from this process and what keeps the 
ASAP up at night?
    Admiral Dyer. Well, sir, there are a number of things that 
keep us at night, and let me address two uber ones and then I 
will home in a little closer. The first worry is frankly that 
another administration takes another approach to space program, 
as we have seen over the last several Administrations in our 
country. If that happens, it is going to be a long way to Mars. 
Closer to home, this issue of clarity and focus is important, 
we believe, from the ASAP perspective. There are different 
leadership perspectives within NASA, and frankly, there is some 
lack of clarity that makes the program harder to manage, that 
along with the cost estimate that Congressman Edwards mentions.
    The agency knows how to build space systems. The agency 
knows how to support economic development. But the concurrency 
and some uncertainty as to which is prime is making the program 
harder to manage. Likewise, the budget lack of a cost estimate 
on behalf of NASA and the uncertainty and instability as 
funding finds its way to NASA are probably the largest worries. 
To get to the bottom perhaps of the question you are asking, 
were NASA to run short of funds and in an attempt to deliver 
with lesser funds if they were to continue with the Space Act 
Agreement and put aside the FAR-based contracts, we think that 
would not lead to a good place.
    Mr. Palazzo. Admiral Dyer, proponents of NASA's commercial 
crew acquisition approach often tout the monetary contributions 
of the companies as an example of efficiency in government 
contracting, the implication being that the company should have 
some skin in the game. Yet as a business leader, I am sure you 
understand that companies only lay out money if they believe 
they can get it back plus an adequate return on their 
investment. Would you comment on how the life cycle costs of 
NASA's current approach could lead to higher seat prices to the 
government than if standard contracting had been used in the 
beginning?
    Admiral Dyer. Well, I am an engineer like my friend, Bill 
Gerstenmaier, so let me use the technique of let us look at it 
in the limits and then decide where we are somewhere in 
between. On one end of the continuum, if a company pays the 
total bill in and of themselves, then they should have total 
freedom and the marketplace should determine the utility but 
the buyer in this relationship has only an indirect influence 
on what the company designs and delivers if they are doing it 
all themselves. Over on the other end of the continuum in a 
more classic government, fully government-funded undertaking, 
the government has great influence as the buyer. They can 
specify what they want and what the system should deliver. We 
are on neither one of those continuums. We are somewhere in the 
middle with a significant amount of money being paid by the 
government, a smaller amount of money being ``skin in the 
game,'' as you call it, but the influence in some people's mind 
is the inversion of that. Even though there is a small amount 
of contractor money in the game, there is tremendous influence 
via an SAA.
    So let us just for argument's sake say that we are totally 
in the middle and everybody is paying 50/50. Does that 
represent a good lifecycle cost equation? Well, it does if it 
succeeds but it doesn't if it fails.
    Mr. Palazzo. Mr. Gerstenmaier, would you like to respond?
    Mr. Gerstenmaier. Yes, I would say that I think the 
advantage here to the contractors is, they see a market out 
there for these vehicles and this capability beyond NASA's 
needs so they look at what they are doing with their rocket 
development and it can be used for other applications and it 
can fly in other areas separate than NASA, so they have a 
market beyond us so they are willing to put some development 
funding into this activity so they can support that other 
activity when it comes about with their capability they are 
developing, and that will essentially lower the cost for us in 
development.
    So what we are doing is, we are essentially allowing them 
to take the work that they are doing, the development they are 
working on for the launcher, for example. In the case of 
SpaceX, that launcher can be used to launch satellites in 
another market separate from NASA. That helps them expend or 
receive revenue in those other areas, so that is the reason 
that they are contributing. Boeing looks at it. They see 
another market out there for commercial crew flights to space 
and so does Sierra Nevada as well. So they see another market 
out there so they are building this capability not only for 
NASA but for their own use, so therefore it is appropriate for 
them to contribute some portion of the developmental costs to 
this activity.
    Mr. Palazzo. Thank you.
    I now recognize Ms. Edwards for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you, 
gentlemen. I don't know if others heard it, but I have to tell 
you, Admiral Dyer, I hear real warning signs coming out of your 
testimony and particularly when you talk about proceeding with 
designs before you have requirements. I just don't get that.
    Mr. Gerstenmaier, does the schedule that you outlined in 
your acquisition strategy assume that you will receive the 
President's budget request level of $830 million per year for 
the remainder of the development program?
    Mr. Gerstenmaier. Based on our BPD submit in 2013, it does 
from 2014 on. We expect to receive that level of funding.
    Ms. Edwards. Do you think that level of funding really 
appears likely in the current fiscal environment, and what 
would be the impact on your schedule if you get an annual 
funding level of $500 million per year?
    Mr. Gerstenmaier. Again, where we are for 2013 is, we are 
uncertain about the funding level in 2013 because we are 
sitting here with a Continuing Resolution so we are held back 
basically at the funding level of 2012. We have accommodated 
for that funding scenario in 2013 here where we have been 
hoping in 2013 we would get somewhere around the Senate level 
that has been discussed in some of the bills. We will see what 
we get. Then from 2014 on out, we are looking at getting in the 
800 level of funding, and as part of the PB14, we will provide 
you the details of the cost estimate, the details of the 
budgeting that go behind that in an effort to try to get 
support for this program that we think is critically important 
and we need on the order of the $800 per year in 2014.
    Ms. Edwards. I strongly suggest that, especially in this 
environment here, to pen an estimate of completion and activity 
based on a hope is a real challenge, I think, for the agency.
    Admiral Dyer, does NASA's commercial crew budget seem 
sufficient to you and what are your considerations as you 
answer that question?
    Admiral Dyer. NASA of course supports the President's 
budget but I will tell you from close and long-term association 
with the folks at NASA, they feel they are underfunded. They 
feel they are challenged to deliver what they are asked to 
accomplish with the funding available. They are being 
innovative, and that is good, but I recommended, Mr. Chairman, 
in my first appearance before this Committee some years ago 
that if I could give NASA and the Congress a single gift, it 
would be a good cost estimate.
    Ms. Edwards. Can I just ask you then, given that statement, 
how is it that in the absence of an independent cost and 
schedule estimate can we in Congress know with any level of 
confidence what it will get for whatever budget NASA proposes?
    Admiral Dyer. Well, that is a challenge. It is an 
understanding of what it is going to cost to deliver, number 
one. Number two, it is a confident place to stand with the best 
of conscience because somewhere along the line of fewer 
dollars, longer time, less money, there must be a place where 
good conscience says we can't deliver for this. Now, I will 
tell you right up front, I have 30 years of association with 
Charlie Bolden and the very highest respect for Bill 
Gerstenmaier. These folks will not violate good conscience but 
we are making it hard for them.
    Ms. Edwards. Thank you.
    And just as I close, Mr. Gerstenmaier, can you just tell me 
why you failed to seek an independent cost assessment and a 
schedule for the Commercial Crew Program and isn't it the norm 
for all the other NASA major programs to do such?
    Mr. Gerstenmaier. We have the basis for our cost estimate 
which we have provided to you. It is not a traditional cost 
estimate. If you look at what we are doing here, we are 
procuring under a hybrid discussion, as we talked about the 
Space Act portion and the contract piece. We ask the 
contractors as part of the commercial crew integration 
capabilities Space Act to give us the cost to go all the way to 
a demonstration flight. We now have that cost data available 
from those proposals. We are going to take that cost data now 
and run it through an independent group to take a look at that 
and develop an independent cost estimate based on that data we 
received from them and will provide that to you as part of the 
President's budget request for 2014. So we will give you the 
data associated with what we have got from the contractors or 
from the Space Act activities and we will provide that to you 
as an independent assessment as we go forward in 2014. And to 
be frank, that was as fast as we could get it to you with this 
hybrid approach that we were taking.
    Ms. Edwards. Thank you, and I yield.
    Mr. Palazzo. I now recognize Mr. Smith from Texas for five 
minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, you have a wonderful reputation for your 
technical knowledge and for being a good manager, so I would 
like to direct some questions to you. The first one is that I 
appreciate the funding constraints that have been mentioned, 
but has the White House sent any signals to you to go slow 
either on Orion or SLS?
    Mr. Gerstenmaier. No, we have received no signals to go 
slow on either Orion or SLS.
    Mr. Smith. Okay. Next question is, when it comes to NASA 
and the target deadline of 2014 for the first test launch of 
Orion, what are the odds that NASA will make that 2014 
deadline?
    Mr. Gerstenmaier. We have very solid plans to have the 
Orion capsule ready to support that 2014 test flight. Our plans 
now show delivery of that vehicle. It is actually in Florida 
undergoing outfitting in Florida. It should be complete and 
ready to be turned over to the launch vehicle at the end of 
next year, in December of 2013. What we are waiting on is the 
launch vehicle. The current launch vehicle availability is 
September of 2014, and so pending the launch vehicle, I believe 
we will be ready to fly in 2014. But the capsule work is going 
very well. We we are working heat-shield problems. We are 
working some avionics problems. We are working some parts 
problems. That is all normal stuff we do normally. We have got 
schedule margin. We will have the vehicle ready to go fly at 
the end of 2013. All we need is a launch vehicle.
    Mr. Smith. A hundred percent sure?
    Mr. Gerstenmaier. I am never a hundred percent sure but we 
will be ready before the launch vehicle is ready. That I can 
tell you.
    Mr. Smith. Great. Another odds question. What are the odds 
that Boeing and SpaceX and Sierra Nevada will meet their 
scheduled deadlines?
    Mr. Gerstenmaier. If you take a look at some of their 
proposals or you discuss with them, they show earlier crew 
transportation dates than 2017. They think they can be earlier 
than those dates. From a NASA perspective, we backed off. We 
said it wasn't appropriate to accept their dates. We wanted 
some margin in that. So we have done our planning based on a 
2017 delivery date, which gives us some margin.
    Mr. Smith. So you have every expectation they will meet 
their deadlines?
    Mr. Gerstenmaier. I think they will be a little bit late 
from what they are advertising in their proposals but they will 
be there about the time we estimate in 2017.
    Mr. Smith. Okay. Thank you for that.
    My last question is this. There has been some discussion 
about the definition of ``commercial'' as it is applied to 
commercial crew and cargo programs. What percentage of the 
funding for those programs comes from the private sector and 
what percentage of the funding comes form NASA?
    Mr. Gerstenmaier. It varies by each one of the participants 
in the Space Act the amount, and it is proprietary to the 
companies the exact percentage, but there is a contribution by 
them. It is smaller in some cases and larger in other cases.
    Mr. Smith. Overall, it has been my understanding that 80 or 
90 percent of the funding comes from NASA. Is that a ballpark 
legitimate figure?
    Mr. Gerstenmaier. I would say the majority of the funding 
is coming from NASA for this activity.
    Mr. Smith. Does that raise any questions about applying the 
term ``commercial'' to some of these enterprises or are you 
comfortable with that application?
    Mr. Gerstenmaier. We could have a long discussion about 
what the term ``commercial'' really means. The way I look at it 
is, I would not use that term specifically but what we are 
doing is, we are getting a contribution from the contractors to 
help in this activity because they believe there is another 
market out there. If you want to pin the term ``commercial'' on 
that, you can pin the term but the facts are what I described.
    Mr. Smith. And regardless, we appreciate what they are 
doing and their capability as well. Thank you, Mr. 
Gerstenmaier.
    Thank you, Mr. Chairman.
    Mr. Palazzo. I now recognize Ms. Bonamici from Oregon for 
five minutes.
    Ms. Bonamici. Thank you, Mr. Chair. Thank you both for your 
testimony and for all you do.
    Admiral Dyer, I want to follow up on the issue of how the 
role of Aerospace Safety Advisory Panel is shaped based on the 
underlying purpose of the commercial crew initiative, and I 
know in the past ASAP has written about the need for clarity 
and consistency of purpose, and you talked about that in your 
testimony. So in ASAP's opinion, is the purpose of the 
Commercial Crew Program to develop the commercial space 
industry or is to acquire transportation to the International 
Space Station?
    Admiral Dyer. Well, that is a great question and one that 
we have asked and one that is not entirely clear in its answer, 
at least to us. Is it economic development, looking back to the 
1930s and the role that government played in what became our 
aviation industry via the airmail programs or is it 
transportation of astronauts to the International Space Station 
and to low-Earth orbit. De facto, I think the answer is both, 
that NASA is attempting to do both. But part of what we mean by 
a lack of clarity is an answer to which is the priority and 
which is first function and first focus. Sometimes I think the 
administration and leadership of the program is harder because 
those priorities seem at least to ebb and flow.
    Ms. Bonamici. Thank you. Thank you very much.
    And I wanted to ask Mr. Gerstenmaier, the work that NASA 
does is very important to everyone in the country, but in the 
district I represent in Oregon, it is home to a lot of high-
tech companies in an area known as the Silicon Forest, and 
though they may be not directly NASA related, the technology 
companies in the district certainly all benefit from the 
development of new, innovative solutions that NASA has been 
responsible for over the years. So I want to ask about the 
development of a domestic alternative to the Russian Soyuz 
spacecraft that is currently being used to transport crew 
members to the ISS, and apparently you have indicated earlier 
this year, I believe in Senate testimony, that the domestic 
alternative is expected to reduce costs, and I understand it 
may be too early to determine the exact value of that cost 
reduction and those savings but will you please discuss what 
factors you will be considering in making the eventual 
determination and discuss particularly how or whether NASA will 
consider the intangible benefits that a domestic alternative 
may have, especially in the area of innovation and economic 
development. It is a balance, and I wonder if you could suggest 
how we can use this acquisition policy to simultaneously 
encourage private-sector creativity and innovation but without 
diminishing the safety of our astronauts. Thank you.
    Mr. Gerstenmaier. You articulated very clearly all the 
things we are trading back and forth. We clearly have to keep 
safety as number one in this activity and make sure we have a 
transportation system that can keep our crew safe, and Admiral 
Dyer described pretty clearly what one of the big questions is 
how safe is safe enough, and we are going to have to work 
collectively to determine that. None of us can do that 
individually but we will definitely adhere to safety.
    Innovation is very important. Doing things domestically is 
also important, to challenge our folks to do things a new way, 
to look at using commercial products to look at other ways of 
getting crew to space has tremendous advantages to us 
domestically here in the United States. We also would like to 
get good value. We budgeted at roughly the Soyuz seat price in 
the outyears with inflation going forward. We would like to get 
lower than that and we will see where the costs come in as we 
go through this activity and we get better understanding of 
where things move but I think the things you describe are 
things that we need to trade across each other. The one that I 
think that becomes a line around is safety. At some point we 
don't trade beyond that. We need to make sure we get a 
capability that will support what we need. Then the next piece 
comes in, the cost side. If the costs go extremely high, which 
we don't think they will, we think we have a good chance to get 
the costs less than Soyuz but if they go high then we need to 
trade, are we getting significant benefit on the innovation 
side and the domestic production side to make that warranted, 
so we will articulate to you to the best of our ability where 
we see that information fall out and with you we can help make 
those trades that are right for the Nation.
    Ms. Bonamici. Thank you very much. I yield back. Thank you, 
Mr. Chair.
    Mr. Palazzo. I now recognize Mr. Rohrabacher from 
California for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I am trying to get a feel for what is really going on here, 
and first let me ask, this hybrid system that you are talking 
about obviously this is not a pure commercial system that we 
are working on. Obviously we are heading in that direction. 
Perhaps that is why that term is being used. That system was 
put in place and it has been utilized this one time for the 
supply of the space station. How much did that save us or did 
that cost us to utilize that new system rather than the 
traditional ways that NASA has been using to resupply the space 
station?
    Mr. Gerstenmaier. In the case of cargo, I can't give you a 
specific number of what we saved, but if you look at the launch 
costs and the cargo delivery, it is substantially less by using 
the Space Act approach than actually acquiring the services 
under a FAR part 12 contract for the actual delivery of the 
services. So that has been a significant savings to us.
    The thing that we need to consider with crew is, there is 
another dimension and that is the safety aspect, and we need to 
watch that as it goes forward, but there was a significant 
savings by using this approach with cargo.
    Mr. Rohrabacher. Right, and a significant savings, and did 
you identify that there was a significant greater risk of using 
this hybrid system?
    Mr. Gerstenmaier. I think that the risk in the case of 
cargo was schedule. We got the systems delivered to us later 
than we would have desired but we were able to extend the 
shuttle with an extra flight that made that risk tolerable to 
have that schedule delay acceptable to us overall.
    Mr. Rohrabacher. There is a lot of concern being expressed 
today about extending a system that has already worked for 
cargo and trying to utilize that for crew, and it has already 
proven very significantly successful in terms of financially 
without really identifiable risk except of the schedule, and 
now people are very concerned that we might apply that same 
hybrid principle to crew. Now, obviously we are concerned about 
the lives of the crew. Let me also--so that is just one 
fundamental that I see going on here in this hearing.
    And Admiral, you said something in passing that sort of 
started me thinking. It is a long way to Mars basically unless 
we have this steady--if we can't count on steady funding. Let 
me suggest that I think that nobody wants to face the fact that 
we can't afford to go to Mars now. The bottom line is, in order 
to have steady funding, we are going to have to defund every 
other space project that we have. Nobody wants to face that. 
Maybe if we are going to provide safety, maybe if we are going 
to provide reliability and do this professionally, maybe we 
should set our goals to something that we can actually 
accomplish within the budgets that are possible without 
destroying every other aspect of the space program. I think 
that is what is happening here today. That is what we are 
really discussing. And I think there is a lot of things that we 
can do in space. I think that this hybrid system that we are 
talking about now will give way to really a commercial industry 
in which we can have people perhaps putting--we have an example 
of that from the gentleman in Nevada right now who is building 
space systems that they can put up there and inflate, and they 
have already actually put one up into space where you have a 
space habitat not done by the government, and it just seems to 
me that if we are going to be the number one space power, we 
have got to have responsible goals in mind.
    I went to Neil Armstrong's funeral ceremony yesterday, and 
of course, I am of the generation that he was the ultimate hero 
of our generation, and I think he will be the ultimate hero of 
a thousand years of human history quite frankly, but that 
Apollo program, it appears to me that some people want our 
entire space program to be based on the structure of Apollo. 
They want--and we did that for the moon. I don't think we can 
do that for the entire--and expect to accomplish the great 
other things that we have to accomplish. We can't do that for 
Mars at the expense of what it would take and expect to have 
any other kind of space program. We have some very serious 
issues that we need to discuss in terms of safety as we move 
forward in terms of the way we approach things.
    I appreciate both of you today giving us a lot of insights 
as to where we are at and how to proceed, so thank you very 
much.
    Mr. Palazzo. I now recognize Mr. Clarke from Michigan for 
five minutes.
    Mr. Clarke. Thank you, Mr. Chair.
    This question is for both of you gentlemen, and it deals 
with the differences between acquisitions through the FAR and 
the Space Act Agreements. Specifically, in your opinion, how 
would the outcome of the award and the evaluation of this 
contract for transportation services be different under the FAR 
as compared to granting the money through Space Act Agreements? 
How would the outcome of the award and evaluation process be 
different?
    Admiral Dyer. I will go first and quick and tell you that 
the panel doesn't have access or knowledge with regard to 
source selection so I am afraid I am no help with that one, 
sir.
    Mr. Gerstenmaier. I would say that the differences at the 
top level are with the Space Act, NASA loses the ability to 
direct the contractor exactly how the requirements are done. As 
Congressman Edwards talked about, we can see what is happening 
in the design but we cannot directly influence the design so we 
get a lot of insight into what is happening. We can see how 
they are designing the vehicle. We can see how they are putting 
it together--Admiral Dyer talked about that--but we cannot give 
them positive feedback, is that design good or is that design 
not good. We can just listen to the design and be there. In a 
contract, we have the direct ability to interact with the 
contractor and tell them exactly what we want, the way we want 
it and ensure that it meets our requirements. What we are doing 
with this hybrid approach is we are letting them have this 
freedom to go ahead and design but then we are holding it 
almost in parallel as fast as I can. In February of 2013 we 
will have a contract in place where we can then have them tell 
us whether they want to use alternate standards, they don't 
want to build it the way we want to. We can provide direct 
feedback to them under this contract. We are going to ask them 
how they do hazard reports, how they control the risks 
associated with spaceflight. We can provide direct feedback to 
them. So what we are trying to do is, we are trying to take the 
advantages of a Space Act that allows them to run fast and 
quick but then we are in parallel going to put on top of that a 
mechanism that we can get some ability to interact with them in 
a more formal manner to actually control the design, that we 
get something that comes out the other side that we can 
actually use. So those are kind of the advantages and 
disadvantages. If you did a pure contract, we would be much 
more involved and it would be probably a little bit longer 
process and a much more costly process if we did just a pure 
contract.
    Admiral Dyer. Congressman Clarke, just to shirttail on Mr. 
Gerstenmaier's comments, NASA is the keeper of our body of 
knowledge on how to get systems into space. So to have better 
and clearer communications, to overcome that problem that Bill 
just voiced is the thing that we think would be most important 
as we go forward in any construct in any type contract.
    Mr. Clarke. Thank you, gentlemen. I yield back my time.
    Mr. Palazzo. I now recognize Mr. Bartlett from Maryland for 
five minutes.
    Mr. Bartlett. Thank you both very much for your testimony 
and your service.
    I understand that it is now generally conceded that 
transportation via this new vehicle could cost several times as 
much as going on the Soyuz. Is that correct?
    Mr. Gerstenmaier. We don't believe that that is the case. 
We have done some kind of worst-case analysis, I would say, to 
go ahead and bound the upper limit of the budget, and that is 
what you may be referring to where we have some cost estimates 
where the seat price is higher than the Soyuz, but then when we 
look at what we have got in CCiCap proposals, we look at what 
we have done under this new method and we can see various 
approaches that get us below essentially what we believe the 
Soyuz seat price is. So I think we have seen both. We will 
continue to go work those and see where we are, so we see a 
range of prices.
    Mr. Bartlett. Obviously from a national-pride perspective, 
we would rather be riding our own horse. Was there any 
discussion up front as to how much we might be willing to pay 
in excess cost to make this happen?
    Mr. Gerstenmaier. We have not had that discussion in terms 
of excess cost. I believe that is still in front of us as we 
bring this design a little bit more to maturity.
    I think the other piece is, it is not just having our own 
horse but I talked about it in my oral a little bit, to have 
another way to get to space station with our crews other than 
just the Russians is tremendously important. You know, even 
when we had the Columbia tragedy, we could not have kept crews 
onboard space station. We could have not continued to assemble 
space station without the Russians being able to back us up 
with transportation. So no matter how good a transportation 
system is, for an asset that is critical as the space station 
is to get research done and continue to moving forward, we 
believe we need an alternate way to get to space station, and 
that is what we are doing with our crews and that is what we 
are doing here with this activity, this commercial crew 
transportation activity.
    Mr. Bartlett. I understand our goal for this new asset in 
terms of safety is one in 273. Can you tell me what that is for 
the Soyuz?
    Mr. Gerstenmaier. We don't have an exact number associated 
with Soyuz. We have looked at it from a historical standpoint. 
We don't have a detailed understanding of the systems design 
and the hardware designs but we looked at it and we would say 
the Soyuz is equivalent to that but I can't provide to you a 
detailed analysis that shows exactly that equivalency, but if 
you look at the flight history of the vehicle, the amount of 
time they have flown, I would say that in a more qualitative 
discussion, you can say they are roughly equivalent.
    Mr. Bartlett. I really hate to ask this next question 
because I am a scientist and a huge supporter of NASA and human 
spaceflight. If the sequester occurs, it would cut defense 
about $50 billion next year. Defense is about one-fifth of our 
spending. So let us be fair and cut everything a commensurate 
amount. That would mean $250 billion next year. That means we 
are cutting Medicaid, Medicare, Social Security. These cuts are 
considered draconian and impossible but if they occur, the full 
$250 billion, that would be somewhere between only one-fourth 
and one-fifth of our deficit. Now, if we cannot possibly cut 
one-fourth to one-fifth of our deficit, how do we ever get 
there? I have 10 kids and 18 grandkids and two great-grandkids. 
Obviously it is not going to be business as usual. Obviously we 
can't continue doing the same things that we are doing now, and 
there is going to have to be a line that we draw: above that we 
fund; below that we can't fund. How do we determine where we 
put this program, above or below that line?
    Mr. Gerstenmaier. No, I am not sure I can even answer that 
question. We can talk about our programs. We can talk about the 
value of the programs but then it is ultimately up to this body 
and a larger body to decide what the right answer is to that 
question.
    Mr. Bartlett. Admiral?
    Admiral Dyer. I really don't have anything to add to Bill's 
last comment, sir.
    Mr. Bartlett. Thank you very much. I yield back.
    Chairman Hall. The Chair recognizes Mr. McNerney, the 
gentleman from California.
    Mr. McNerney. Thank you, Mr. Chairman. I am glad to see you 
back here this morning again.
    Mr. Gerstenmaier, let us talk about the Commercial Crew 
Program for a little while. Now, is the plan--I understand what 
you said earlier that we are not going to completely eliminate 
looking at the Soyuz as a backup program but does this 
eliminate the use of the Soyuz as our main reliable carrier for 
all of our crews or are we going to still rely on the Soyuz 
every so often for our transportation?
    Mr. Gerstenmaier. Our intent would be to use this U.S. 
space carrier for all the transportation to and from ISS.
    Mr. McNerney. Thank you. That is good.
    Admiral, do you think that the Commercial Crew Program is 
receiving more or less scrutiny than the oversight NASA would 
receive if there were no private-sector involvement? Do you 
think there is more or less scrutiny now?
    Admiral Dyer. The essence of the Space Act construct limits 
the flow of information and prohibits direction from NASA into 
the partners. They are not contractors. ``Partners'' is the 
operative word. So I think an honest answer to your question is 
that there must be less because this large body of knowledge 
that NASA holds is more difficult in its transfer to those that 
are building the future space systems.
    Mr. McNerney. That isn't the answer I expected. Does that 
put us at more risk then in terms of safety for our astronauts?
    Admiral Dyer. You know, sir, you can build confidence in 
systems that fly in a couple of ways. The first way I will 
mention is difficult, expensive and long in coming, and that is 
that you just fly it enough or launch it enough to where 
statistically you have built the confidence that it is good to 
go. That is not a launch or two or three or even ten, but if 
you launch enough, you can build confidence that it is solid 
and it is ready to go. And frankly, I think that is part of our 
confidence in the Soyuz system.
    On the other end of the continuum, you can have detailed 
knowledge of the design, detailed insight into the build, and 
intimate knowledge in the truthfulness of the people. That 
comes with the intimacy that in our opinion is difficult to 
establish in the Space Act Agreement.
    Mr. McNerney. Thank you. I appreciated your earlier 
comment, Admiral, that your biggest gift would be an accurate 
budget assessment. What do you think the most difficult part of 
the budget is? Is there a specific item or is it just too many 
uncertainties all up and down the chain?
    Admiral Dyer. Mr. Gerstenmaier, I think, spoke to it when 
he said this is a different animal. We know how to do a classic 
contract, classic FAR-based government procurement. This isn't 
one of those for many and perhaps many good reasons. So it is 
more difficult but I don't think it is impossible. I will speak 
with a little more freedom than I did in my DOD days when I was 
sitting in testimony on the Hill and tell you that one of the 
things that I like about a solid cost estimate is it gave me a 
confident place to stand if it was cogent. They are never 
right, by the way. They always evolve. But if it gives you a 
cogent place to stand, then I could be supportive and defensive 
of the budget that I thought it would take to execute. And then 
if that budget was cut, other folks wore some of the 
responsibility for reducing the funding to that program, be it 
extended schedule, be it increased risk, be it what have you. 
But others had to wear some of the responsibility. If you don't 
have a cogent cost estimate, you don't have a place to stand 
for that conversation.
    Mr. McNerney. Thank you for your frank answer, Admiral.
    Mr. Chairman, I yield back.
    Chairman Hall. All right. The gentleman yields back. The 
Chair now recognizes Mr. Brooks, the gentleman from Alabama, 
five minutes.
    Mr. Brooks. Thank you, Mr. Chairman, and Mr. Gerstenmaier 
and Admiral Dyer, thank you for your service.
    I would like to get into the finances a little bit more. It 
is something you all have touched on. And if you could, share 
with me what is each Commercial Crew Integrated Capabilities 
participant's total private investment, or, in a different way 
of approaching it, the percentage of the government commercial 
crew award versus the private investment in these programs.
    Mr. Gerstenmaier. Again, I can't provide the specifics 
because it is proprietary to the companies but it is on the 
order of probably 80 percent, 90 percent as we have discussed 
government investment. It could be a little soft around those 
numbers but it is on that order overall, and it varies from 
partner to partner in the Space Act activity.
    Mr. Brooks. Is it fair to say then that the private-sector 
contribution to the total cost is in the neighborhood of 10 to 
20 percent, the inverse of 80 to 90 percent? What is your 
degree of confidence that the private sector is contributing 
somewhere between 10 and 20 percent, not more, not less?
    Mr. Gerstenmaier. I think we have pretty good insight into 
what is going on, and we believe that they are contributing on 
that order. There is no reason to doubt that they are actually 
contributing those portions that we have discussed.
    Mr. Brooks. Do you have any data that establishes the 
amount, perhaps that you can't share with us today because it 
is proprietary?
    Mr. Gerstenmaier. I don't have any direct data. You know, 
you would typically ask me, do I have a 533, do I have an 
accounting sheet, a record formally transmitted from, and I do 
not have that, but we see it from evidence of work they are 
doing, activities they are doing and other things, so we 
indirectly can attest to the numbers that I just talked about.
    Mr. Brooks. Thank you. And continuing, Mr. Gerstenmaier, at 
a rate of no more than two NASA missions per year, most 
analysts conclude that only one provider will ultimately be 
needed. If only one provider is selected to provide this 
service, how much government funding will have been provided to 
the other firms that will not be providing subsequent services 
to the United States government?
    Mr. Gerstenmaier. If you want a precise number, I can take 
it for the record and we can go calculate what that number is, 
but there will be funds that will have gone to these other 
providers that are not providing a service. The question is, is 
the market going to be just ISS or is the market going to be 
bigger than ISS. What we hear from these commercial companies 
is they believe that there is a market for their spacecraft 
that is beyond the government's need. They believe there is a 
commercial-sector market for that. So even though one of these 
companies may only provide services to NASA for our ISS 
activities, the others may have another market to go do that 
can be there. Then I have the advantage from the government 
side is now I have another contractor that I could go back and 
pick up to go provide services later in some future activity if 
we decide to extend, for example, space station beyond 2020 and 
we need some additional services. It may be someone else in the 
market for us to go by. So we are investing in that other 
contractor as you described but we potentially get some benefit 
if they can generate a market on their own.
    Mr. Brooks. That underlying premise in the question was 
that there would only ultimately be one provider needed to do 
the two-plus or minus NASA missions a year. Is that an accurate 
premise?
    Mr. Gerstenmaier. I believe that is where we are looking 
for the actual services flight we are looking at potentially we 
say likely one provider in that region. I think the other 
reason we want to carry multiple providers earlier is, it 
provides a competition across those providers which keeps them 
meeting NASA requirements, it keeps them wanting to invest 
their own funding in this activity so that avenue of 
competition up front also gives us some pretty strong benefits 
to help us get a good price coming out the end, even though we 
may ultimately down-select to just one contractor or one--yeah, 
one contractor.
    Mr. Brooks. In the Committee notes for this hearing, it 
states, ``On August 3, 2012, NASA ordered Space Act Agreements 
to three different companies with a combined value of $1.113 
billion. Boeing will receive $460 million, SpaceX will receive 
$440 million and Sierra Nevada will receive $212 million.'' Is 
that consistent with your recollection?
    Mr. Gerstenmaier. Yes, sir.
    Mr. Brooks. And if I do the math correctly, if only one of 
these three companies is ultimately going to be providing 
services to the United States government, if, for example, that 
happens to be Boeing just because they are the ones that are 
receiving the most money, that means roughly $650 million would 
have been spent on companies for which NASA is not getting any 
direct service but we are spending the money on the hope that 
some day that competition will lower the cost. Is that a fair 
assessment?
    Mr. Gerstenmaier. I would add that the benefit of having 
competition, it is very difficult at this stage in the 
development to pick a winner. If I knew with certainty which 
one of those companies could actually come through this process 
and deliver a product out the other side, I could pick now. But 
at this point in where we are, I want them to continue their 
development. I want them to get into tests. I want to see how 
their hardware flies. I want to understand whether they have a 
safe system or not. And that, I guess the extra cost you 
describe, I believe that gives us significant benefit that it 
gives me an opportunity to select another provider if I see one 
system is safer than another. It gives me an option to move 
forward. So even though there is an extra cost, I believe there 
is a significant benefit to us, not monetarily but from a 
capability standpoint and from a safety standpoint of carrying 
multiple providers at this phase.
    Mr. Brooks. Thank you, Mr. Gerstenmaier, for sharing your 
insight on why we are doing what we are doing.
    Mr. Chairman, thank you for the additional minute.
    Chairman Hall. Thank you, sir.
    I will recognize Mr. Hultgren of Illinois for five minutes.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, NASA's acquisition plan includes a costly 
phase, and I think it is about $4.5 billion of optional 
milestones. I wondered, would these optional milestones if 
selected; using Space Act Agreements or Federal Acquisition 
Regulations, so SAA or FAR?
    Mr. Gerstenmaier. They are only available for us to 
exercise under the Space Act and they are only--and we have the 
ability to exercise them one at a time. So we don't need to 
pick up the entire phase. We could do those one at a time but 
they would be under a Space Act.
    Mr. Hultgren. Do you know, do the companies expect the 
optional milestones are part of the certification path?
    Mr. Gerstenmaier. I think you would have to ask the 
companies. I don't anticipate using those in the certification 
activity. We believe we are going to move to this certification 
products contract phase one followed by a phase two as shown in 
the white paper. We may choose to implement one or two of those 
milestones but we will be careful about which ones of those we 
choose and we will make sure they are justified and understood 
and they provide significant value back to the U.S. government.
    Mr. Hultgren. So your expectation from NASA's point of view 
is that they wouldn't be used, or if they are used, there would 
be very minimal usage. Is that right?
    Mr. Gerstenmaier. I would say selective. We will use those 
if we selectively see some significant advantage to us to pick 
up one of those milestones or two of those milestones in that 
period.
    Mr. Hultgren. Admiral Dyer, from your perspective on the 
safety advisor panel, what are the pitfalls do you think of 
this process?
    Admiral Dyer. I don't know that there are any that I 
haven't mentioned in terms of communications, et cetera, et 
cetera. It does touch on that what keeps you at night worry, 
though, and that is, there is tremendous pressure in any 
government agency and any government program to force fit the 
job to be done into the money available. So if money does run 
short, we worry that there may be an attempt to certify not via 
a FAR contract but via the Space Act agreements perhaps with a 
very limited demonstration of safety without the insight. That 
wouldn't be a good thing.
    Mr. Hultgren. Mr. Gerstenmaier, you mentioned kind of what 
your thoughts or expectations would be as far as the optional 
milestones go. I wonder would they really only become 
affordable if the Commercial Crew Program is funded at a higher 
level than it receives today?
    Mr. Gerstenmaier. As we project forward in our budget 
submit for 2013, you know, we are looking for $829 million or 
so in fiscal year 2014, we think we need those funding levels. 
It is not clear that a funding level would directly tie to 
these milestones, in other words, if we had more funding, would 
we implement these milestones? I would look at it more from a 
technical benefit standpoint, does this provide an ability to 
advance or to get more safety insight, does this give us an 
additional test that is critical to us. So it is kind of a--I 
don't know. We would look at them and evaluate whether it makes 
sense, so it is not tied to the overall funding level whether 
we would implement those optional milestones or not.
    Mr. Hultgren. If I can change direction just a little bit, 
while not directly related to today's hearing, I wondered, Mr. 
Gerstenmaier, if you could comment briefly on the current state 
of the J-2X engine?
    Mr. Gerstenmaier. The J-2X is doing extremely well down in 
Stennis. We fired that engine for, I believe, up to 19 minutes, 
which is one of the longest firings we have had in any liquid-
engine test program. It is meeting all its milestones, all its 
performance activities. It is proceeding extremely well down in 
Stennis.
    Mr. Hultgren. I wonder if there any threat of money being 
redirected away from J-2X development toward some of these 
other programs?
    Mr. Gerstenmaier. Again, we need to look at the overall 
needs of the program of what the right approach is as we move 
forward for the heavy-lift launch vehicle. The upper stage 
clearly needs this J-2X engine if we are going to get into 130-
metric-ton region. We can also get in that same lift capability 
by changing the boosters on the side of the SLS. We have an 
advanced booster contract to go take a look at that to see 
other liquid systems that may go on the side. So we are 
actively trading those back and forth. We may slow down the 
testing a little bit on J-2X if we think that gets us to a 
faster capability for SLS or we may keep it right at the same 
path we are on right now, but the intent is, I want to take J-
2X until we have that system fully wrung out and ready to be an 
operable system for the future.
    Mr. Hultgren. Well, I see my time has just about run out. 
Thank you both. Thank you, Chairman. I yield back.
    Chairman Hall. I thank you.
    The Chair recognizes Ms. Adams, the gentlelady from 
Florida, for five minutes.
    Mrs. Adams. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, can you describe the working relationship 
that NASA has with the CCiCap companies and how that 
relationship helps NASA guide the development of these new 
vehicles, especially since our biggest concern is that NASA 
does not have the authority to impose safety requirements at 
this stage in the development?
    Mr. Gerstenmaier. We have teams located at each one of the 
CCiCap providers. Those teams get insight into the daily 
activities and the design that is occurring and the work that 
is occurring on those designs as they are moving forward.
    Mrs. Adams. Are you having open dialog with CCiCap?
    Mr. Gerstenmaier. We have full insight into what they are 
doing and what activity is going on. We don't have the control 
side but we have full insight into what they are doing.
    Mrs. Adams. So you don't have a conversation back and 
forth?
    Mr. Gerstenmaier. I think that is probably a fair way of 
saying it.
    Mrs. Adams. I want to talk about the cost of Atlas V 
rockets. The price of an Atlas has skyrocketed under the 
evolved expendable launch vehicle administered under the Air 
Force. My understanding is that the Commercial Crew Program 
will greatly lower the cost of crew launch for our Nation. 
However, NASA has selected two proposals that are using Atlas V 
vehicles. Is NASA somehow getting a cheaper price than the Air 
Force is getting? NASA paid over $220 million per launch for 
the Atlas V rocket for the GOES-R and GOES-S missions. Is the 
cost similar to what we paid under the Commercial Crew Program, 
or what will be paid under Commercial Crew?
    Mr. Gerstenmaier. What we are doing under the Commercial 
Crew Program is, we are getting integrated service, which is 
transportation of crew to the ISS. It is then up to the 
commercial crew providers to negotiate with United Launch 
Alliance for the cost of the rockets that you described over 
the cost of the Atlas V. That is internal to their contract. 
What I am looking for is a total cost on the other side, and it 
would be best for you to talk to the individual CCiCap 
providers to get their insight into what their relationship is 
with United Launch Alliance.
    Mrs. Adams. Okay. Do you believe it will be more cost-
effective than what the U.S. Air Force is doing?
    Mr. Gerstenmaier. I don't have insight into that. I know 
what the seat price is on the other side or the anticipated 
seat price, and there needs to be some efficiency there. It 
does help in the sense that it is helping throughput through 
the system and that helps lower some of the marginal costs 
which could potentially benefit both sides. It could 
potentially also lower costs for other satellite providers as 
well as for us.
    Mrs. Adams. If NASA receives level funding on the order of 
$500, $525 million over the next several years for Commercial 
Crew? Does the acquisition plan hold together; will you get the 
services agreement sometime in 2017?
    Mr. Gerstenmaier. As part of our budget submit, we will go 
look at some alternate funding scenarios and show you what is 
available at those various funding levels. I don't have that 
information, or I am not prepared to talk about it today.
    Mrs. Adams. So you can't talk about whether you think you 
will get to a service agreement by some time in 2017?
    Mr. Gerstenmaier. Well, I think it would be better for us 
to take that for the record and then go ahead and actually put 
the numbers together and show you where it is as part of our 
PB14 activity.
    Mrs. Adams. Okay. In the plan presented today, what would 
NASA reduce, eliminate or extend if the program is flat-funded?
    Mr. Gerstenmaier. Say the question again. In terms of----
    Mrs. Adams. In the plan presented today, in the plan 
presented today, what would NASA reduce, eliminate or extend if 
the program is flat-funded?
    Mr. Gerstenmaier. Again, what we would do is, we would go 
look and see what our options are. If we say flat-funded, we 
would look into extension, we would look at other alternate 
activities. What we need to be cognizant of is what Admiral 
Dyer talked about, if I get a certain funding, we need to go 
take a hard look at this and say is this something we can 
actually deliver.
    Mrs. Adams. Are you not having contingency plans?
    Mr. Gerstenmaier. We have contingency plans but not of the 
level that you just described because I am still struggling 
with exactly what my fiscal year 2013 budget is. Is it 406, 
which it was back in 2012, or is it the Senate or the House 
version that sits out in front of us.
    Mrs. Adams. Go back to the awards. If they were made under 
the FAR-based selection process, how would the decision process 
be different?
    Mr. Gerstenmaier. We followed a pretty rigorous process to 
do these funded Space Act awards. It didn't fall under the 
exact definition of the FAR activity. It has certain 
constraints. But the spirit and the intent of what we did in 
our reviews, the way we did our deliberations, the way I set up 
the teams, the way we did the evaluations, the way we did the 
criteria is all consistent with what the FAR was but we didn't 
follow the exact letter of the law of the FAR.
    Mrs. Adams. But it is very close?
    Mr. Gerstenmaier. It is very close.
    Mrs. Adams. Thank you, Mr. Chair. I will yield back.
    Chairman Hall. The gentlelady yields back.
    I think we are about out of soap here. We are going to have 
to quit washing pretty soon.
    Mr. Gerstenmaier, I didn't get to have a question, but as I 
came back in, you were talking about how the Russians had 
supported the space station after the Columbia accident, and I 
guess my question is, how much can we rely on the Russians to 
supply Soyuz after 2016 even if NASA is no longer a customer 
there? It is my understanding we are paying them something in 
excess of $50 million now and by then it will be around $62 
million.
    Mr. Gerstenmaier. Again, as we----
    Chairman Hall. We are no longer buying seats unless we are.
    Mr. Gerstenmaier. We intend once we get our capability we 
would no longer purchase seats from the Russians. We have a 
problem in July 1 of 2016. We have the Iran-North Korea-Syria 
Nonproliferation Act which prohibits us from providing funding 
or even bartering for capability from the ISS. We are going to 
need some relaxation in that Act to continue to operate the 
space station with the Russians. So we could not--we are 
prohibited now from buying seats beyond that July 2016 date 
with the Russians currently. We anticipate that some 
legislation will get approved in the next year that may help us 
with that current problem.
    Chairman Hall. Okay. I think that answers the question I 
had.
    Ms. Edwards had a brief question to close on.
    Ms. Edwards. Thank you.
    Chairman Hall. Your time is up.
    Ms. Edwards. I just adore him.
    Chairman Hall. Go ahead.
    Ms. Edwards. Thank you very much, Mr. Chairman.
    Just to follow up on that, in terms of--so you will be 
seeking a waiver then for INKSNA, and if that is true, do you 
actually have a legislative proposal? Because presumably that 
would need to happen at the end of 2012 or early next year, 
right?
    Mr. Gerstenmaier. We need it in the spring of next year, 
and we have been working with several folks and working 
internal to the Administration to get a proposal to come 
forward.
    Ms. Edwards. Thank you. Mr. Gerstenmaier, it would just be 
really helpful to have that, especially if you look at our 
calendar this year and early next year. It would be helpful if 
we had something to bounce off of. Thank you.
    Chairman Hall. Thank you for your brevity.
    Now, the questions are completed, I presume. We have no one 
else. I want to thank the witnesses for their very valuable 
testimony, and if the Committee--any members of the Committee 
who are not here who have other business here have questions 
for you, we will submit them to you and would really appreciate 
your being able to answer them to us in writing. They will be 
submitted in writing, and we will keep the record open for two 
weeks for additional comments from other members.
    We thank you again over and over for your testimony and for 
your time, and you are excused. This hearing is adjourned.
    [Whereupon, at 11:03 a.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Mr. William H. Gerstenmaier

[GRAPHIC] [TIFF OMITTED] T6234.021

[GRAPHIC] [TIFF OMITTED] T6234.022

[GRAPHIC] [TIFF OMITTED] T6234.023

[GRAPHIC] [TIFF OMITTED] T6234.024

[GRAPHIC] [TIFF OMITTED] T6234.025

Responses by Vice Admiral Joseph W. Dyer, USN (Ret.)

[GRAPHIC] [TIFF OMITTED] T6234.026

[GRAPHIC] [TIFF OMITTED] T6234.027

[GRAPHIC] [TIFF OMITTED] T6234.028

[GRAPHIC] [TIFF OMITTED] T6234.029

[GRAPHIC] [TIFF OMITTED] T6234.030

                              Appendix II

                              ----------                              


                   Additional Material for the Record


  Submitted Statement for the Record by Representative Jerry Costello

    Chairman Hall, thank you for holding this important hearing.
    I was encouraged by SpaceX's successful cargo demonstration last 
May and am looking forward to its upcoming launch of an operational 
cargo flight to the International Space Station (ISS) in October. I 
hope that Orbital Sciences will likewise be successful.
    While these milestones should be commended, it is important to note 
that crewed flights are a lot more difficult than cargo flights. As 
commercial crew development advances, I am concerned with NASA's 
reversal in its commercial crew acquisition strategy--using Space Act 
Agreements (SAA), instead of Federal Acquisition Regulations (FAR)-
based contracts for design activities and its possible affect on 
astronaut safety, which is of paramount importance.
    Last year, NASA expressed to this committee that adherence to 
NASA's safety requirements could not be assured without using FAR-based 
contracts. NASA said that the risk of commercial partners' inability to 
meet its human-rating requirements could cause costly and time-
consuming redesigns and pose safety concerns, thus requiring NASA to be 
more involved in the development of any commercial transportation 
system. As a result, NASA said Space Act Agreements could not be used.
    Because NASA has since reversed itself by going back to using SAAs, 
I am eager to hear from our panel of experts on what this committee can 
expect going forward, whether astronaut safety is being compromised, 
and whether we can be assured that taxpayer funds are being spent 
wisely.
    Mr. Chairman, I want to take a moment to recognize the loss of two 
American icons. Neil Armstrong and Sally Ride reminded us of the sheer 
ingenuity of the American public and the limitless possibilities 
available when Americans come together toward a common goal.
    As his last hearing before this Committee, Mr. Armstrong cautioned 
that ``NASA, with insufficient resources, struggles to fulfill the 
directives of the Administration and the mandates of the Congress. The 
result is a fractious process that satisfies neither.'' Acknowledging 
that progress is rapid and unstoppable in a technology-driven world he 
also said ``Our choices are to lead, try to keep up, or get out of the 
way. A lead, however earnestly and expensively won, once lost, is very 
difficult and expensive to regain.''
    Their achievements, counsel and wisdom on space exploration speak 
to the importance of maintaining American preeminence in space flight 
and ensuring that NASA is adequately funded to meet future challenges.
    Doing so would be a fitting way of honoring their courage, 
commitment, dedication, and exceptional accomplishments while 
maintaining American leadership in space exploration.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
